     DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL


                                                                          Office of Audit Services, Region IV
                                                                          61 Forsyth Street, SW, Suite 3T41
                                                                          Atlanta, GA 30303
October 19, 2011

Report Number: A-04-10-00071

Mr. Ralph Woodard
Federal Programs Chief Financial Officer
BlueCross BlueShield of Tennessee, Inc.
One Cameron Hill Circle
Chattanooga, TN 37402

Dear Mr. Woodard:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Riverbend Government Benefits Administrator’s
Medicare Part A Termination Costs for the Period August 4, 2009, Through March 3, 2010. We
will forward a copy of this report to the HHS action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-04-10-00071 in all correspondence.

                                             Sincerely,



                                             /Lori S. Pilcher/
                                             Regional Inspector General
                                               for Audit Services



Enclosure

cc: 	Deborah Taylor
     Director & Chief Financial Officer
     Office of Financial Management
     Centers for Medicare & Medicaid Services
  Department of Health and Human Services
              OFFICE OF 

         INSPECTOR GENERAL 





 REVIEW OF RIVERBEND GOVERNMENT 

BENEFITS ADMINISTRATOR’S MEDICARE 

 PART A TERMINATION COSTS FOR THE 

  PERIOD AUGUST 4, 2009, THROUGH

          MARCH 3, 2010





                         Daniel R. Levinson

                          Inspector General 


                           October 2011 

                           A-04-10-00071 

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                              INTRODUCTION 


BACKGROUND

Medicare Program

Title XVIII of the Social Security Act established the Health Insurance for the Aged and
Disabled (Medicare) program, which provides for a hospital insurance program (Part A) and a
related supplementary medical insurance program (Part B). Medicare Part A provides basic
protection against the costs of hospital, related post-hospital, home health services, and hospice
care. The Centers for Medicare & Medicaid Services (CMS) administers the Medicare program
and contracts with private organizations to process and pay claims for services provided to
eligible beneficiaries.

Riverbend Government Benefits Administrator Medicare Contract

During the period October 1, 2004, through August 3, 2009, CMS contracted with Blue Cross
and Blue Shield of Tennessee (BCBST), doing business as Riverbend Government Benefits
Administrator (Riverbend), to serve as the Medicare Part A fiscal intermediary responsible for
Tennessee and New Jersey. Riverbend’s Medicare Part A contract with CMS (the contract)
provided for reimbursement of allowable administrative costs incurred and allowable termination
costs if CMS terminated the contract. Such administrative costs include the direct costs of
administering the contract as well as allocations of certain indirect costs of services or assets
used by Medicare and other entities. CMS guidelines require contractors to file costs incurred
prior to contract termination as administrative costs through submission to CMS of a Final
Administrative Cost Proposal (FACP) and to file costs incurred subsequent to the termination in
a separate termination cost voucher.

In accordance with CMS guidelines, Riverbend claimed reimbursement of administrative costs
through submission to CMS of an annual FACP. For October 1, 2004, through August 3, 2009,
Riverbend claimed approximately $142 million in reimbursement for direct and indirect
administrative costs related to the contract.1

After CMS terminated the contract effective August 4, 2009, Riverbend submitted termination
cost vouchers on which it claimed Part A termination costs totaling $3,533,224 for the period
August 4, 2009, through March 3, 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Medicare Part A termination costs that Riverbend
claimed were reasonable, allocable, and allowable for Medicare reimbursement.


1
 We reviewed these administrative costs incurred prior to contract termination under a separate report
(A-04-10-00067).

                                                         1

Scope

Our review was limited to $2,581,320 in Medicare Part A termination costs claimed on
Riverbend’s termination cost vouchers from August 4, 2009, through March 3, 2010. These
termination costs included the following: $1,135,958 for legal costs, $847,902 for severance
pay, $190,426 for asset depreciation, $331,994 for information technology activity costs, and
$75,040 for post-cutover costs. We did not review $951,904 subject to review under separate
audits.2

We limited our internal control review to controls related to the recording and reporting of costs
claimed on Riverbend’s termination cost vouchers. We accomplished our objectives through
substantive testing.

We conducted our fieldwork at BCBST offices in Chattanooga, Tennessee.

Methodology

To accomplish our objective, we:

    	 reviewed applicable Medicare laws, regulations, and guidelines;

    	 reviewed Riverbend’s policies and procedures;

    	 reviewed the contract;

    	 interviewed Riverbend officials to obtain an understanding of its claiming of termination
       costs;

    	 reviewed termination cost vouchers submitted by Riverbend to CMS for the period
       August 4, 2009, through March 3, 2010;

    	 reconciled Medicare Part A termination costs claimed to Riverbend’s accounting records;

    	 reviewed Riverbend severance pay for allowability, allocability, and reasonableness by
       ensuring that Riverbend paid severance only to employees eligible under the contract and
       that Riverbend properly calculated severance pay;

    	 recalculated severance pay in accordance with BCBST policy for severance pay; and




2
 The $951,904 included pension ($444,026), Supplemental Executive Retirement Plan ($365,285), and
administrative ($142,593) costs.

                                                      2

   	 reviewed direct costs for legal, asset depreciation, information technology activity and
      post-cutover expenditures by tracing expense items to supporting documentation,
      including invoices, accounting reports, and depreciation schedules.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                   RESULTS OF REVIEW

The Medicare Part A termination costs that Riverbend claimed for the period August 4, 2009,
through March 3, 2010, were reasonable, allocable, and allowable for Medicare reimbursement.




                                               3

